WAIVER

Supreme Court, U.S.
FILED

NOV 2 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-597

Sprint Nextel Corporation, et al.

Morris Reese

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
II] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

AT&T Mobility II LLC and TracFone Wireless, Inc.

0 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a
Signature
Date.

No i'ember 21, 20J

(Type or print) Name

Vincent John Galluzzo
F Mr. El Ms. 0 Mrs.

Firm

Crowell & Moring LLP

Address

1001 Pennsylvania Avenue, N.W.

City & State
Phone

❑ Miss

Washington, DC

(202) 624-2781

Zip 20004
vgalluzzo@crowell.com
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Holly H. Barnes

